HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Palm Gardens of Pinellas, a Skilled Nursing Facility in Largo, Florida, (A-04-96-01118)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Palm Gardens of Pinellas, a Skilled Nursing
Facility in Largo, Florida," (A-04-96-01118)
September 25, 1996
Complete
Text of Report is available in PDF format (1.26 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the period from November 1, 1994 through December 31, 1995.
The Operation Restore Trust reviewers questioned $47,229 in charges reported for the 28 sample beneficiaries in our study.
This amount included $32,420 related to physical, occupational, and speech therapy services not rendered; $10,180 of unallowable
respiratory therapy services; $270 in unallowable pharmacy charges; $310 in inappropriate physician payments; $441 in undocumented
x-ray charges; and $3,598 in inappropriate psychiatric services. Therefore, we are recommending an adjustment of the above
charges. In addition, we request that a focused review of all rehab therapies and the use of standing orders for these
therapies be conducted by the Fiscal Intermediary and State agency in order to recoup overpayments made to this skilled
nursing facility and to implement corrective action by the facility.